So
|

C@OCKLE

2311 Douglas Street Le ga l Brie f s E-Mail Address:

Omaha, Nebraska 68102-1214 Est, 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-574

SHEILA J. POOLE, COMMISSIONER OF THE NEW
YORK STATE OFFICE OF CHILDREN AND FAMILY
SERVICES, IN HER OFFICIAL CAPACITY, PETITIONER

v.
NEW YORK STATE CITIZENS’
COALITION FOR CHILDREN.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 2nd day of January, 2020, send out
from Omaha, NE | package(s) containing 3 copies of the BRIEF IN OPPOSITION in the above entitled case. All parties
required to be served have been served by third-party commercial carrier for delivery within 3 calendar days. Packages were
plainly addressed to the following:

SEE ATTACHED
To be filed for:
GRANT J. ESPOSITO BRIAN R. MATSUI
ADAM J. HUNT Counsel of Record
MORRISON & FOERSTER LLP DEANNE E. MAYNARD
250 West 55th Street ADAM L. SORENSEN*
New York, NY 10019 MORRISON & FOERSTER LLP
2000 Pennsylvania Ave., N.W.
*Not admitted in the District Washington, D.C. 20006
of Columbia; admitted only in (202) 887-8784
Virginia; practice supervised BMatsui@mofo.com
by principals of Morrison &
Foerster LLP admitted in
the District of Columbia. Counsel for Respondent

Subscribed and sworn to before me this 2nd day of January, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

od EC Clty Qdeow-h, Ghle

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38999
Barbara Dale Underwood

Solicitor General

Counsel of Record

Office of the Attorney General
28 Liberty Street
New York, NY 10005-1400
212-416-8016
Barbara.underwood@ag.ny.gov
Counsel for Petitioner
